Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
United States of America
T: +1 312 782 0600
F: +1 312 701 7711
mayerbrown.com

Timothy S. Bishop
T: +1 312 701 7829
F: +1 312 706 8607

October 13, 2021

TBishop@mayerbrown.com

Scott Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

National Pork Producers Council, et al. v. Karen
Ross, et al., No. 21-468

Dear Mr. Harris:
Respondent California’s letter waiving its response to the above-captioned petition for certiorari
contains improper and misleading argument. This Court’s denial of a petition to review an
interlocutory order rejecting different plaintiffs’ motion to preliminarily enjoin Proposition 12 in
North American Meat Institute v. Bonta (“NAMI”), No. 20-1215, carries no weight here. Pet. 32
n.5. The above-captioned petition—which will be supported by at least six amicus briefs submitted
by numerous States, the National Association of Manufacturers and other business groups, the
Canadian Pork Council, farmers across the United States, and the Cato Institute—seeks review of
a final order dismissing the complaint for failure to state a claim (Pet. App. 21a-35a), not review
of the discretionary application of preliminary injunction factors as in NAMI. Petitioners allege
substantially different facts and legal theories than those in NAMI. Pet. 7-14, 17. The Ninth Circuit
here, and not in NAMI, concluded that petitioners plausibly allege that Proposition 12 will cause
dramatic upstream effects on the nationwide pork market that will be felt by pork producers,
distributors, and consumers outside of California. Pet. App. 18a-20a. This petition thus presents a
materially different and more suitable vehicle to address the significant dormant Commerce Clause
problems with Proposition 12 than the petition denied in NAMI.
Sincerely,
/s/ Timothy S. Bishop
Timothy S. Bishop
cc:

R. Matthew Wise, Deputy Attorney General, California Department of Justice
Bruce A. Wagman, Riley Safer Holmes & Cancila LLP

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

